Certificate of Postal Service

I Morgan Mccoy swear that one copy of this Supplemental Brief of Petitioner
was lodged with the Supreme Court of the United States at 1 First Street NE,
Washington, DC 20543 and that one copy of this Supplemental Brief of Petitioner
was served on defending attorney of record for Respondent Michael Bullock, Stephen
J. Chuparkoff Reg. No.0039141, Suite 615, 50 S. Main Street, Akron, Ohio 44308 by
regular mail, by/about tuesday, September 8th, 2020.

/ s / Morgan Mccoy

Y.

